FY 2004
Performance
Report




        Social Security Administration
        Office of the Inspector General
                   Table of Contents



Mission Statement ………………………………………………….              2

Vision and Values …………………………………………………..             2

Executive Summary…………………………………………………                3

Performance Discussion and Analysis ……………………………..   5

Goal 1 – Impact ……………………………………………………..              5

Goal 2 – Quality …………………………………………………….              6

Goal 3 – Timeliness …………………………………………………             7

Goal 4 – Value ………………………………………………………                9

Goal 5 – People ……………………………………………………...             10
                MISSION STATEMENT



 By conducting independent and objective audits, evaluations,
        and investigations, we improve the Social Security
  Administration’s programs and operations and protect them
 against fraud, waste, and abuse. We provide timely, useful,
and reliable information and advice to Administration officials,
                    Congress, and the public.




                VISION and VALUES



    We are agents of positive change striving for continuous
improvements in SSA’s programs, operations, and management
 by proactively seeking new ways to prevent and deter fraud,
waste, and abuse. We are committed to integrity and achieving
   excellence by supporting an environment that encourages
employee development and retention, and fosters diversity and
       innovation while providing a valuable public service.




November 2004         SSA OIG FY 2004 Performance Report   Page 2
                            EXECUTIVE SUMMARY



The Office of the Inspector General (OIG) Fiscal Year (FY) 2003-2005 Strategic Plan
(Plan) is a document that embodies our continuing efforts to demonstrate accountability
to our stakeholders. This Performance Report reflects our progress during FY 2004 in
achieving our strategic goals set forth in the Plan.

The Plan focuses on five general areas; the Impact we have on improving Social
Security’s programs and operations; the Quality of OIG products and services; the
Timeliness by which we deliver those products and services; the Value we bring to Social
Security and the citizens we serve; and the People who make our office successful–our
employees.

Within the five general areas, there are 15 individual measures used to assess our
performance. Some of these measures are annual targets while others reflect goals to be
achieved by the last year of performance under this plan in FY 2005. For FY 2004, we
were successful in meeting the targets for 12 of the 15 performance measures.

The results outlined in this document continue to demonstrate that our activities have a
positive impact on Social Security programs and operations. The quality of our products
remains high and although we complete most of our work in a timely manner, we
continue to look at ways to improve. Our organization continues to post a positive return
for every dollar invested, currently $25 to $1. Our approach to staffing demonstrates a
commitment to workforce diversity by reaching out to underrepresented groups and our
employees feel that this organization is a good place to work.

In FY 2004, we remained flexible and responsive to the inevitable changes in our
environment. We convened a workgroup of representatives from each of our components
to review the goals, strategies, performance measures and results from the FY 2003
Performance Report. The workgroup recommended improvements and proposed
revisions to the Plan. We implemented an online performance-measure tracking tool to
better manage and track progress against targets.

These accomplishments demonstrate our commitment to integrity and achieving
excellence. Moreover, they evidence our continuing support of an environment that
encourages employee development and retention and fosters diversity and innovation
while providing a valuable public service.




November 2004                SSA OIG FY 2004 Performance Report              Page 3
                                    PERFORMANCE RESULTS


                                                                                               GOALS
GOAL                    DESCRIPTION                           TARGET RESULT
                                                                                       MET       NOT MET
                                                   IMPACT
       Maintain an annual acceptance rate of at least 85
 1.1                                                          85%            93%         X
       percent for all recommendations through FY 2005.
       Through FY 2005, achieve a 5-year average
       implementation rate of 85 percent for accepted
 1.2                                                          85%            88%         X
       recommendations aimed at improving the integrity,
       efficiency and effectiveness of SSA.
                                                 QUALITY
       Achieve a positive internal and external user
 2.1   assessment rating of 80 percent for                    80%            89%         X
       product-service quality.
                                               TIMELINESS
       Evaluate and respond to all allegations received
 3.1                                                         30 Days        26 Days      X
       within 30 days through FY 2005.
       Complete investigative fieldwork for 80 percent of
 3.2                                                          80%            69%                    X
       cases within 180 days through FY 2005.
       Respond to congressional requests within an average
 3.3                                                         30 Days        11 Days      X
       of 30 days through FY 2005.
       Take Action on 80 percent of Civil Monetary Penalty
 3.4                                                          80%            59%                    X
       (CMP) subjects within 30 days of receipt by FY 2005.
       Issue 70 percent of final audit reports within 1 year
 3.5                                                          70%            70%         X
       of the entrance conference with SSA.
       Issue 95 percent of OIG products in time to meet the
 3.6   needs of Congress, SSA and other key                    95%           100%        X
       decisionmakers.
                                                  VALUE
 4.1   Generate an annual positive return on investment.     Positive   $25 to $1        X
       Increase the number of total judicial outcomes by at
 4.2                                                           30%           38%         X
       least 30 percent by FY 2005.
                                                 PEOP LE
       By FY 2005, achieve an 80 percent retention rate for
 5.1                                                           80%           81%         X
       newly hired employees.
       By 2005, achieve an 80 percent positive
 5.2                                                           80%           92%         X
       organizational health assessment rate.
       Ensure that 90 percent of OIG staff receives at least
 5.3   40 hours annually of appropriate developmental          90%           81%                    X
       training.
       By FY 2005, improve the overall workforce diversity
 5.4                                                          29.2%         29.5%        X
       with an emphasis on underrepresented groups.


         November 2004                 SSA OIG FY 2004 Performance Report             Page 4
                     PERFORMANCE DISCUSSION AND
                             ANALYSIS


This section provides detailed performance information, including a description of our
Strategic Plan goals aimed at achieving success in each of the five general areas. We
state each goal, its associated results and describe the method of calculation. Where
appropriate, we also explain why we believe we were successful or unsuccessful in
meeting our goals and address actions needed to improve performance.


  Goal 1 - IMPACT
         Increase our impact on the integrity, efficiency, and effectiveness of SSA
                               programs and operations.

Strategies to attain this goal include:

  (1) Establish and communicate an OIG-wide process for cross-component
      communications on potential programmatic and operational vulnerabilities.

  (2) Coordinate, receive, and assess information about potential programmatic
      and operational vulnerabilities.

  (3) Focus OIG efforts on impacting congressional and SSA programmatic and
      operational decisions, including major budgetary decisions.

  (4) Reinforce OIG’s role as an agent for positive change using constructive,
      balanced language in presenting viable opportunities for improving SSA
      programs and operations.

               Maintain an annual acceptance rate of at least
                                                                      FY 2004 Result
 Goal 1.1          85 percent for all recommendations
                                                                        93 Percent
                            through FY 2005

This measure is calculated by dividing the number of legislative, policy and regulatory
recommendations accepted by SSA and/or Congress (included in proposed legislation)
during the FY by the total number of recommendations with a management decision and
legislative proposals made during the FY.

For FY 2004, our annual acceptance rate was 93 percent, exceeding our 85 percent goal. Of
the 270 recommendations we submitted during this period that have a management
decision, SSA agreed with 252.




November 2004                  SSA OIG FY 2004 Performance Report            Page 5
                 Through FY 2005, achieve a 5-year average
               implementation rate of 85 percent for accepted            FY 2004 Result
 Goal 1.2
                  recommendations aimed at improving the                   88 Percent
                integrity, efficiency and effectiveness of SSA.

This measure is calculated by dividing the total number of accepted recommendations
implemented by SSA during the past 5 FYs by the total number of recommendations SSA
agreed to implement during the past 5 FYs.

Since SSA needs sufficient time to implement the recommendations it has agreed to, there is
a 1-year lag in this calculation. Thus, for FY 2004 we are reporting the 5-year period
covering FYs 1999 through 2003. Our average implementation rate for accepted audit
recommendations was 88 percent, exceeding our 85 percent goal. During this period, Social
Security implemented 1,065 of 1,217 recommendations.


 Goal 2 - QUALITY
        Provide OIG products and services of quality and value to Congress, SSA,
                            and other key decisionmakers.

Strategies used to attain this goal include:

  (1) Implement a product and service quality assessment instrument.

  (2) Develop and implement procedures and a tracking system to review and
      analyze internal and external feedback to maintain a focus on continuous
      improvement of OIG products and services.

  (3) Communicate OIG-wide best practices and lessons learned.

                Achieve a positive internal and external user
                                                                        FY 2004 Result
 Goal 2.1           assessment rating of 80 percent for
                                                                          89 Percent
                          product-service quality.

This measure is calculated by using a five-tier rating scale measuring the strength of
agreement with six statements about OIG product-service quality. Specifically, during our
Quality Assurance Review (QAR) process, we translate these responses into a percentage
with 80 percent indicating satisfaction.

For FY 2004, our user assessment rating of 89 percent exceeded our goal of 80 percent.
However, during FY 2004, we developed a new quality assessment instrument to measure
internal/external user satisfaction due to the low response rate we received with one
previous survey instrument used during FY 2003. Due to its recent implementation, the
89 percent result is based on limited responses we received during our first test of this new
instrument.



November 2004                  SSA OIG FY 2004 Performance Report              Page 6
Goal 3 - TIMELINESS
Ensure OIG products and services are issued in time to meet the needs of Congress, SSA,
                     key decisionmakers, and other end users.

Strategies used to attain this goal include:

  (1) Identify administrative and operational barriers to timely delivery of OIG
      products and services.

  (2) Identify and adopt best practices to aid the timeliness of OIG products and
      services.

  (3) Identify and use Information Technology investments to expedite OIG work
      products and service delivery.

  (4) Use mid-point or other early warning reports to encourage swift action on
      sensitive and politically controversial issues.

               Evaluate and respond to all allegations              FY 2004 Result
 Goal 3.1
              received within 30 days through FY 2005.                 26 Days

This measure is calculated by dividing the total number of response days for all allegations
during the FY by the total number of allegations closed during the FY. Response days are
the elapsed days from receipt of an allegation to the date it is declined, referred to an
appropriate authority or an investigation is opened.

The average response time for allegations for FY 2004 was 26 days. For FY 2004, we
revised the calculation method. The new calculation is based on allegations closed during
the FY as opposed to FY 2003’s calculation based on allegations received. We feel the
revised calculation more accurately reflects the response time for allegations to which we
responded.

                 Complete investigative field work for
                                                                     FY 2004 Result
 Goal 3.2     80 percent of cases within 180 days through
                                                                       69 Percent
                               FY 2005.

This measure is calculated by dividing the total number of investigations closed or referred
for judicial/SSA action during the FY where fieldwork was completed in less than 180 days
by the total investigations closed during the FY.

For FY 2004, we completed investigative field work for 69 percent of all cases within
180 days. While our performance falls short of the target goal of 80 percent, our case
processing times have been improving annually with more than a 9 percent improvement
over the FY 2003 rate. We believe that closing 80 percent of investigative cases within 180


November 2004                  SSA OIG FY 2004 Performance Report             Page 7
days is an aggressive target, but we are hopeful that advances in technology and work-
process refinements will enable us to meet our target by FY 2005.

              Respond to congressional requests within               FY 2004 Result
Goal 3.3
              an average of 30 days through FY 2005.                    11 Days

This measure is calculated by dividing the total processing days for all congressional
requests received during the FY by the total number of congressional requests received
during the FY. Processing days are the days elapsed from receipt of a congressional request
to the date of a final response.

For FY 2004, we received 87 congressional requests and our average processing time was
11 days. This is a substantial improvement compared to FY 2003’s average of 23 days.

                Take Action on 80 percent of Civil
 Revised                                                             FY 2004 Result
             Monetary Penalty (CMP) subjects within 30
 Goal 3.4                                                              59 Percent
                    days of receipt by FY 2005.

For FY 2004, we revised this goal. This measure is calculated by dividing the total number
of CMP subjects against whom action was taken within 30 days of receipt during the FY by
the total number of CMP subjects where action was taken during the FY.

For FY 2004, we have taken action on 59 percent of CMP subjects within 30 days.
Although we are below our FY 2005 target goal of 80 percent, FY 2004’s performance
represents more than a 25 percent increase compared to FY 2003’s performance. This is
partly due to reduced CMP processing times by performing more detailed initial screening
of potential cases. This process has been effective in moving us closer to reaching our
performance goal of 80 percent by FY 2005. We are examining this work process for
enhancements and innovations to further reduce case evaluation and processing times.

                 Issue 70 percent of final audit reports
                                                                     FY 2004 Result
 Goal 3.5       within 1 year of the entrance conference
                                                                       70 Percent
                               with SSA.

This measure is calculated by dividing the total number of audit reports issued during the
FY within 1 year of the entrance conference by the total number of audit reports issued
during the FY.

For FY 2004, we issued 70 percent of our final audit reports within 1 year of their entrance
conference meeting our target goal of 70 percent. Furthermore, the average report took only
275 days from start to issue. We understand that timely issuance of our audit work products
promotes more timely corrective actions and with the implementation of automated working
papers this past fiscal year, we are confident that less time will be spent on processing
reports and help us achieve our goal.




November 2004                SSA OIG FY 2004 Performance Report               Page 8
               Issue 95 percent of OIG products in time to
                                                                      FY 2004 Result
 Goal 3.6           meet the needs of Congress, SSA
                                                                       100 Percent
                      and other key decisionmakers.

This measure is calculated by using a five-tier rating scale measuring the strength of
agreement about the timeliness of OIG products. Specifically, during our Quality
Assurance Review (QAR) process, we translate these responses into a percentage with 95
percent indicating satisfaction.

For FY 2004, our user assessment rating of 100 percent exceeded our goal of 95 percent.
However, during FY 2004, we developed a new quality assessment instrument to measure
internal/external user satisfaction due to the low response rate we received with one
previous survey instrument used during FY 2003. Due to its recent implementation, the
100 percent result is based on limited responses we received during our first test of this new
instrument.



  Goal 4 - VALUE

     To sustain a positive return-result for each tax dollar invested in OIG activities.


Strategies used to attain this goal include:

  (1) Maintain a positive-return culture in OIG.

  (2) Provide OIG components with training and tools necessary to ensure that analytical
      methods for determining returns-results are consistent and appropriate.

  (3) Prioritize high impact investigations, audits, and counsel actions to ensure an
      appropriate focus on more efficient and economic SSA programs and operations.

  (4) Maintain an awareness of, and address, both national security and public safety
      issues during the course of detecting and preventing fraud, waste and abuse.

 Revised        Generate an annual positive return on                FY 2004 Result
 Goal 4.1                   investment.                                $25 to $1

This measure is calculated by dividing the total amount of all OIG loss prevention-related
savings identified during the FY by the total amount of appropriated funds during the same
period.

For FY 2004, we revised this goal. For FY 2004, we returned $25 for every dollar invested.
FY 2004 appropriated funds were $87.7 million and the total loss prevention-related savings
from our audit, investigative and legal activities were $2.2 billion.


November 2004                  SSA OIG FY 2004 Performance Report              Page 9
                  Increase the number of total judicial              FY 2004 Result
 Goal 4.2
               outcomes by at least 30 percent by FY 2005.             38 Percent

This measure is calculated by dividing the incremental increase in convictions and other
judicial outcomes (excluding fugitive felon apprehensions) as reported in OIG’s semiannual
reports by the level of judicial outcomes (excluding fugitive felon apprehensions) taken in
the base year (2002).

For FY 2004, we revised this calculation. For FY 2004, we processed 2,753 judicial actions
and investigations, which represent a 38 percent increase over the 2,003 judicial actions
processed in the base year. During FY 2004, we discontinued counting fugitive felon
apprehensions as a category of judicial outcomes. Therefore, we adjusted the base year to
exclude fugitive felons as a defined judicial outcome.


  Goal 5 - PEOPLE
         Promote/Ensure a skilled, motivated, diverse workforce in a positive and
                             rewarding work environment.

Strategies used to attain this goal include:

  (1) Identify underrepresented professional, technical, and managerial skills at
      headquarters and field locations.

  (2) Identify assignment interests and developmental needs of all employees.

  (3) Prioritize resources to address underrepresented skills, employee interests, and
      developmental needs.

  (4) Prepare a comprehensive management development program that includes:
      succession planning, desired core competencies, and both technical and
      managerial skills for specific targeted positions.

  (5) Develop a proactive approach in recruiting and hiring candidates to meet
      different needs.

  (6) Pilot test, refine, and implement the proposed Organizational Health
      Assessment Instrument.

  (7) Be sensitive to and target underrepresented minority groups both internally
      and externally in recruiting, hiring, and staff development.




November 2004                  SSA OIG FY 2004 Performance Report            Page 10
              By FY 2005, achieve an 80 percent retention             FY 2004 Result
 Goal 5.1
                   rate for newly hired employees.                      81 Percent

This measure is calculated by dividing the total number of employees hired 5 years ago who
are still with the OIG through the current reporting period, by the total number of employees
hired 5 years ago.

For FY 2004, our retention rate for employees hired during FY 2000 was 81 percent.

                By FY 2005, achieve an 80 percent positive            FY 2004 Result
 Goal 5.2
                  organizational health assessment rate.                92 Percent

This measure is calculated by dividing the total organizational health factors receiving a
positive rating by all OIG employees by the total number of organizational health factors
rated by employees.

We ask employees to complete an annual online survey in which they respond to a series of
questions relating to the quality of their OIG work experience. For FY 2004, our
organization’s health assessment rate is 92 percent, exceeding our 80 percent goal.

Our survey requests positive or negative responses to the following five statements and asks
the respondents if they consider these needs important to job satisfaction.

   •   I see a clear link between my job and the OIG mission.
   •   I have a rewarding and fulfilling job.
   •   I have the tools and skills needed to do my job.
   •   I am treated with respect and trust.
   •   My supervisor is supportive and responsive to my needs.

                 Ensure that 90 percent of OIG staff
                                                                    FY 2004 Result
Goal 5.3        receives at least 40 hours annually of
                                                                      81 Percent
                 appropriate developmental training.

This measure is calculated by dividing the total number of OIG staff receiving at least
40 hours of developmental training during the FY by the OIG Full-Time Equivalents (FTE)
for the FY.

For FY 2004, 81 percent of OIG staff received at least 40 hours of appropriate
developmental training. While this is short of our target, we did realize an increase of
training for our employees during FY 2004. Moreover, for FY 2004, OIG averaged more
than 84 hours of training per FTE. This training-hours per FTE evidences our commitment
to having a well-trained workforce. Nevertheless, we are taking a number of actions to
improve our performance for this goal.

The Career Leadership Development Plan program, implemented in FY 2004, assists


November 2004                SSA OIG FY 2004 Performance Report               Page 11
employees and managers in defining a developmental work experience and training
program to support career development goals. In an effort to provide additional training
opportunities, we awarded a Blanket Purchase Agreement for Microsoft training that can be
taken at locations throughout the country at a time convenient for employees. These and
other planning efforts will help ensure that our staff receives adequate and appropriate
training in accordance with our Strategic Plan.

                      By FY 2005, improve the
                                                                  FY 2004 Result
 Goal 5.4         overall workforce diversity with an
                                                                   29.5 Percent
                emphasis on underrepresented groups.

This measure is the difference in the OIG workforce profile from the beginning of the FY
compared to the end of the FY. For FY 2004, our workforce diversity profile was 29.5
percent. This exceeds our target of 28 percent and demonstrates our commitment to recruit
a more diverse work force. We are confident that the actions we have taken during this
reporting period, coupled with our commitment, will enable us to maintain a diversified
workforce.




November 2004               SSA OIG FY 2004 Performance Report             Page 12
